<html>
<title> - MEMBERS' DAY HEARING: HOUSE COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                         MEMBERS' DAY HEARING:
                      HOUSE COMMITTEE ON SCIENCE,
                         SPACE, AND TECHNOLOGY

=======================================================================

                                HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 17, 2019

                               __________

                           Serial No. 116-21

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



       Available via the World Wide Web: http://science.house.gov
       
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-339PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------       
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

             HON. EDDIE BERNICE JOHNSON, Texas, Chairwoman
ZOE LOFGREN, California              FRANK D. LUCAS, Oklahoma, 
DANIEL LIPINSKI, Illinois                Ranking Member
SUZANNE BONAMICI, Oregon             MO BROOKS, Alabama
AMI BERA, California,                BILL POSEY, Florida
    Vice Chair                       RANDY WEBER, Texas
CONOR LAMB, Pennsylvania             BRIAN BABIN, Texas
LIZZIE FLETCHER, Texas               ANDY BIGGS, Arizona
HALEY STEVENS, Michigan              ROGER MARSHALL, Kansas
KENDRA HORN, Oklahoma                RALPH NORMAN, South Carolina
MIKIE SHERRILL, New Jersey           MICHAEL CLOUD, Texas
BRAD SHERMAN, California             TROY BALDERSON, Ohio
STEVE COHEN, Tennessee               PETE OLSON, Texas
JERRY McNERNEY, California           ANTHONY GONZALEZ, Ohio
ED PERLMUTTER, Colorado              MICHAEL WALTZ, Florida
PAUL TONKO, New York                 JIM BAIRD, Indiana
BILL FOSTER, Illinois                JAIME HERRERA BEUTLER, Washington
DON BEYER, Virginia                  JENNIFFER GONZALEZ-COLON, Puerto 
CHARLIE CRIST, Florida                   Rico
SEAN CASTEN, Illinois                VACANCY
KATIE HILL, California
BEN McADAMS, Utah
JENNIFER WEXTON, Virginia
                         
                         
                         C  O  N  T  E  N  T  S

                              May 17, 2019

                                                                   Page

                           Opening Statements

Written statement by Representative Daniel Lipinski, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..     3

Written statement by Representative Randy Weber, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..     4

Written statement by Representative Bill Foster, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..    10

Statement by Representative Eddie Bernice Johnson, Chairwoman, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................    14
    Written statement............................................    14

Statement by Representative Frank Lucas, Ranking Member, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................    14

                               Witnesses:

Statement by Representative Ralph Norman, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    14
    Written statement............................................    17

Statement by Representative Brian Babin, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    18
    Written statement............................................    20

Statement by Representative Brad Sherman, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    21
    Written statement............................................    23

Statement by Representative Scott Tipton, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    25
    Written statement............................................    27

Questions........................................................    29

 
                         MEMBERS' DAY HEARING:
                      HOUSE COMMITTEE ON SCIENCE,
                         SPACE, AND TECHNOLOGY

                              ----------                              


                          FRIDAY, MAY 17, 2019

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Committee met, pursuant to notice, at 9:35 a.m., in 
room 2318 of the Rayburn House Office Building, Hon. Eddie 
Bernice Johnson [Chairwoman of the Committee] presiding.
    Chairwoman Johnson. The hearing will come to order. Without 
objection, the Chair is authorized to declare a recess at any 
time. Good morning to all. I'd like to welcome everyone to the 
Members' Day Hearing for the Committee on Science, Space, and 
Technology for the 116th Congress. Today's Members' Day Hearing 
gives Members, including not on the Committee, the opportunity 
to come before us and discuss proposed legislation, or simply 
discuss interests and priorities under the Committee's 
jurisdiction. We have four Members before us today, if the next 
two will come. We also had Members submit testimony for the 
record.
    Mr. Lipinski provided testimony on his bill, H.R. 2202, the 
Growing Artificial Intelligence through Research Act. Mr. 
Weber's written statement discusses his forthcoming bill, the 
Nuclear Energy Research Infrastructure Act. And Dr. Foster's 
testimony covers an assortment of topics within our legislative 
jurisdiction, including the importance of national 
laboratories, perils of human genetic engineering, the need for 
investment in artificial intelligence, and priorities for NASA 
(National Aeronautics and Space Administration) funding. That 
testimony will be entered into the record and has previously 
been distributed to all Committee Members.
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Johnson. I'd like to welcome our colleagues 
testifying before us today, and we look forward to hearing your 
thoughts on these very important policy areas. It is my desire 
to have this Committee work in a bipartisan manner because we 
must all work together to tackle the many challenges in our 
jurisdiction, including science education, energy research, 
national competitiveness, and climate change.
    [The prepared statement of Chairwoman Johnson follows:]

    Good morning. I would like to welcome everyone to the 
Members' Day Hearing for the Committee on Science, Space, and 
Technology for the 116th Congress. Today's Members' Day Hearing 
gives Members, including those NOT on the Committee, the 
opportunity to come before us and discuss proposed legislation, 
or simply discuss interests and priorities under the 
Committee's jurisdiction.
    We have four Members before us today to testify on a 
variety of policy areas and bills. We also had Members submit 
testimony for the record. Mr. Lipinski provided testimony on 
his bill H.R. 2202--the Growing Artificial Intelligence through 
Research Act. Mr. Weber's written statement discusses his 
forthcoming bill--the Nuclear Energy Research Infrastructure 
Act. Dr. Foster's testimony covers an assortment of topics 
within our legislative jurisdiction, including the importance 
of national laboratories, perils of human genetic engineering, 
the need for investment in artificial intelligence, and 
priorities for NASA funding. Their testimony will be entered 
into the record and has previously been distributed to all 
Committee Members.
    I would like to welcome our colleagues testifying before us 
today. We look forward to hearing your thoughts on these very 
important policy areas. It is my desire to have this Committee 
work in a bipartisan manner, because we must all work together 
to tackle the many challenges in our jurisdiction including 
science education, energy research, national competitiveness, 
and climate change.

    Chairwoman Johnson. I will now ask Mr. Lucas if he'll have 
an opening statement.
    Mr. Lucas. Thank you, Chairwoman Johnson, for holding this 
Members' Hearing, and thank you to my colleagues who are 
joining us today to testify about their priorities for the 
Committee this year. The Science Committee has jurisdiction 
over some of the most interesting aspects of our government, 
including research, energy, technology development, space 
flight. I welcome my colleagues' thoughts on these issues, and 
I look forward to your testimony, and I would simply note, as I 
yield back to the Chairlady, that that spirit of 
bipartisanship, and the effort with which we've all worked 
together, has gone amazingly smooth, and I very much appreciate 
her efforts. Yield back, Madam Chair.
    Chairwoman Johnson. Thank you very much. Now, if there are 
Members who wish to submit additional opening statements, your 
statements will be added to the record at this point.
    Now to our testifying colleagues: We will have one panel, 
and each of you will have 5 minutes for testimony. When you 
have all completed your testimony, we will then open the floor 
to questions from all attending Members of the Committee. We 
will begin with Mr. Norman, and you may begin your testimony.

                 STATEMENT OF HON. RALPH NORMAN,

                  A REPRESENTATIVE IN CONGRESS

                FROM THE STATE OF SOUTH CAROLINA

    Mr. Norman. Thank you so much, Chairman Johnson, and 
Ranking Member Lucas. Thank you all for having this. It's a 
little bit weird sitting on this side of the aisle, but thank 
you for having this. I have a special heart for veterans. I'm 
like many of you, you have a lot of veterans serving in the 
individual districts, so it's my honor to be able to present 
what I think is a great bill that can be bipartisan, and one 
that benefits all.
    My bill is H.R. 617, the Department of Energy Veterans' 
Health Initiative Act. This legislation authorizes a 
partnership between the Department of Energy (DOE) and the VA 
(Veterans Administration) in order to facilitate research on 
high-priority healthcare needs of the VA, further research on 
artificial intelligence, and to advance our Nation's Big Data 
science. And I might add that this was requested by both the VA 
and the Department of Energy. The VA is good on a lot of 
things, but what the VA is lacking is the ability to have 
information stored. They don't have the computers to do it, and 
that's why the DOE has that, and both of them requested it.
    I introduced this bill last Congress, and was thrilled to 
see it pass the House unanimously. I was proud to reintroduce 
the bill again this Congress, and was glad to see that it 
retained bipartisan support. I'm grateful to the many Members 
of this Committee who co-sponsored this legislation, including 
the continued support from Ranking Member Lucas, and my friend 
across the aisle, Mr. Lipinski.
    Even more encouraging for our Nation's veterans is that 
Senator Ernst introduced a bipartisan Senate companion to my 
bill. Under the VA Voluntary Data Collection Program, the 
Million Veterans Program, the VA has collected detailed health 
information and geonomic data volunteered by over 600,000 
veterans. They volunteered this information. However, the 
interagency partnership authorized by my bill is necessary to 
analyze this data, and ultimately provide better care for our 
Nation's veterans. The DOE has the capability to securely store 
and analyze this data based on its robust research in 
computational sciences and data analytics. In addition, the DOE 
national labs have 6 of the world's top 10 fastest 
supercomputers, which I did not realize until I started doing 
this, which includes having the world's fastest supercomputer.
    If we're able to sign this legislation into law, then 
supercomputers would be used to analyze VA health data and look 
for patterns that will help improve the medical treatments for 
our heart disease, traumatic brain injury, and cancer. While 
this alone should warrant consideration of the bill, because we 
should be taking any steps possible to improve the medical care 
of our men and women who answered the call to serve, and were 
willing to make the ultimate sacrifice, this partnership would 
also benefit the DOE. Analyzing the complex health data will 
allow our scientists to remain leaders in advanced computing, 
and allow for the development of computing tools necessary to 
address Big Data in the future. This legislation also includes 
a critical pilot program to help the DOE develop infrastructure 
to support other interagency partnerships, allowing the 
Department to help other Federal agencies to tackle similar 
problems.
    Chairwoman Johnson, I urge you to rise to the occasion and 
make the needs of our veterans, and the potential to improve 
their medical care, a top priority, which I know is the case. 
With the passage of this bill, we will be able to show the 
country that, regardless of our differences, there is still 
common ground, and providing better care for our veterans is a 
place we can come together and agree, because the men and women 
of our armed forces keep us all safe, regardless of our 
political party. By supporting this bipartisan legislation, we 
are showing our veterans and the Nation that we can work 
together for the greater good. I encourage my colleagues to 
support this bill. It's a bill that promises to improve our 
veterans' ability to access better healthcare services, and 
challenge our scientists so that they can remain the world's 
leader in advanced computing. Thank you so much.
    [The prepared statement of Mr. Norman follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Johnson. Thank you very much. We'll move now to 
Dr. Babin.

                 STATEMENT OF HON. BRIAN BABIN,

                  A REPRESENTATIVE IN CONGRESS

                     FROM THE STATE OF TEXAS

    Mr. Babin. Yes, ma'am. Thank you, Madam Chair. I appreciate 
you, and Ranking Member Lucas. Good to be with you this 
morning. And I want to thank the rest of my SST colleagues as 
well for allowing me the opportunity to address all of you this 
morning. I'm very proud to serve as both the Ranking Member on 
the Space and Aeronautics Subcommittee, and also on the 
Environmental Subcommittee. And with the limited time that I 
have, I would like to lay out a few of my priorities, and 
encourage the Committee to work together to accomplish as many 
of these as possible in this Congress.
    Our Nation's space arena, whether it be in commercial, 
civil, or defense, is growing exponentially. We, this 
Committee, are faced with challenges that set the stage for us 
to lead the discussion on how to navigate this growth and to 
maintain, or better yet, to grow, America's role as the world's 
pre-eminent spacefaring nation. To do that, I believe that we 
need to focus on three different areas.
    First, we must re-evaluate the way that we regulate 
commercial space activities. As a Committee, we should be 
encouraging the creation of conditions for economic growth and 
opportunity right here, not making it so hard to participate 
that we push high tech, space-focused companies abroad. In the 
115th Congress, the House passed the American Space Commerce 
Free Enterprise Act (ASCFEA). That would've accomplished this 
very goal, while streamlining the bureaucracy into a one-stop 
shop at the Department of Commerce, all while maintaining our 
compliance with the Outer Space Treaty. This Committee 
unanimously approved the ASCFEA last Congress, before we sent 
it to the floor, where it passed without opposition. Let's do 
it again.
    Second, as access to space continues to increase, so does 
the need for more significant steps to be taken in terms of 
space safety, specifically, issues relating to space 
situational awareness and space traffic management, but also 
with regard to how we investigate accidents.
    And third, thanks in large part to the leadership of this 
Committee in years past, the United States is now closer than 
ever to launching American astronauts on American rockets from 
American soil. And couple that with this Administration's 
ambitious plans to return to the moon by 2024, the Science, 
Space, and Technology Committee is going to have its hands full 
in ensuring that we accomplish the goal of a sustainable 
presence on the moon as we push outward to Mars, and eventually 
beyond. All of this, while also being responsible stewards of 
the taxpayers' dollar.
    And I represent Johnson Space Center (JSC) in Houston, 
which is the lead NASA center for human space exploration. The 
International Space Station, which is managed out of JSC, is a 
test bed for technologies and capabilities that will make the 
goals of pushing outward possible. Last Congress I introduced 
the Leading Human Space Flight Act, which recognizes the 
importance of a permanent and continuous U.S. human presence in 
low-Earth orbit, and directs NASA to work with the private 
sector in developing commercial capabilities to meet our future 
needs there. My bill also authorizes NASA to operate the ISS 
(International Space Station) until 2030, or until a 
sustainable lower cost alternative is demonstrated. The Leading 
Human Space Flight Act maintains our national capabilities to 
manage space operation and space integration, spacesuit 
development, and habitat integration as we return to the moon, 
and push outwards to Mars.
    I ask that the Committee work with me as I work to advance 
this legislation again in this Congress. I'm very proud to have 
served as the Chairman of the Space Subcommittee last Congress, 
and I'm very honored to continue as the Ranking Member now. 
NASA has accomplished unbelievable things in the last 60 years, 
and I wholeheartedly believe that the next 60 will be even more 
impressive for the American space enterprise as a whole, to 
include NASA, and I look forward to working with each one of 
you on this Committee to ensure that we here at SST play an 
indispensable role in that. I will be reintroducing these bills 
soon, and seeking co-sponsors.
    I know I'm short on time, but I'd be remiss if I didn't 
touch on my role as the Subcommittee on Environment. Regardless 
of party, environmental policy is of universal importance, and 
I welcome these often polarizing conversations, but I'm very 
certain that when we decide to work together, we will 
accomplish significant achievements, like leading the world in 
weather prediction, which should be a great priority. We have 
the privilege of having some incredibly unique topics under our 
jurisdiction, from cybersecurity, to protecting our Nation's 
proprietary data, to artificial intelligence and hypersonics, 
to weather prediction, and the human and scientific exploration 
of our galaxy. We work on turning the science fiction of today 
into the technology of tomorrow.
    I look forward to working together with both sides of the 
dais to ensure that we at SST maintain jurisdiction on issues 
like space launch, accident investigation, remote sensing, or 
anything else that others have publicly or privately made a 
claim to. Let us always be inspired by the profound words on 
the wall back behind where you're sitting. And, quoting from 
Proverbs 29:18, ``Where there is no vision, the people 
perish''. Once more, I'm proud to serve with each of you, and 
look forward to working together with all of you in the 116th 
Congress. Thank you.
    [The prepared statement of Mr. Babin follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Johnson. Thank you very much. We'll go to Mr. 
Sherman.

                 STATEMENT OF HON. BRAD SHERMAN,

                  A REPRESENTATIVE IN CONGRESS

                  FROM THE STATE OF CALIFORNIA

    Mr. Sherman. Thank you. It's been a pleasure to rejoin the 
Committee after a decade of absence. I believe that science 
will transform our lives even more this century than it did 
last century. If someone's describing what the future will be 
30 years from now, and they paint a picture that you think 
looks like a science fiction movie, they might be right, they 
might be wrong. But if somebody paints a picture that doesn't 
look like a science fiction movie, you know they're wrong. 
We're going to be living in a science fiction movie. We just 
don't know which one yet.
    There is an issue, something in the world more explosive 
than nuclear fusion, and that is intelligence. After all, it is 
intelligence that allows us to develop nuclear fusion. We now 
have two groups of scientists working to develop new levels of 
intelligence. They are the computer engineers on the one hand, 
and the bioengineers on the other. The last time a new higher 
level of intelligence appeared on this planet is when our 
ancestors said hello to the Neanderthal. We then said goodbye 
to the Neanderthal. As we develop intelligent computers, we 
will find them useful tools. As we find them useful tools, we 
will use those tools to develop faster and smarter computers.
    We had a hearing in this room, in 2003 in which experts 
said that computers would reach human intelligence within 25 
years. I think they might have been a little premature. Might 
be 30, might be 35 years from 2003, which means next decade, or 
the decade after. There are those who say that even if a 
computer is intelligent and malevolent, it's in a box, and 
can't affect the world. But I believe there are those of our 
species who would sell hands to the Devil in return for a good 
stock tip. What I do draw solace from is that computers may be 
intelligent, but that does not mean they'll be self-aware or 
ambitious. By ambitious I mean a desire to protect themselves, 
expand and affect the world so that they can do that. My 
computer doesn't seem to care whether I turn it off or 
disassemble it. A mouse does.
    That leads us to the next form of enhanced intelligence, 
and that is what the bioengineers are doing. They can start 
with human DNA, and we're alarmed by what happened in China, 
where the CRISPR technology was used to create a ``designer 
baby,'' and they could also start with the DNA of some other 
mammal. DNA is inherently ambitious. Those microbes that didn't 
seek to replicate and survive, didn't. So you could view this 
as a contest between the bioengineers and the computer 
engineers to see who will be first in developing super-
intelligence. Will our successor species be carbon-based or 
silicon-based?
    What should this Committee do? Most immediate is the area 
of artificial intelligence. We fund it, we develop it, we 
authorize it, the U.S. Government is critical to it. And as we 
develop smarter and smarter computers, we should direct 1 or 2 
percent of the effort to preventing self-awareness, ambition, 
self-initiative, and autonomy. This should be done both by 
requiring that those who do research in AI have separate 
studies focused on that, and build it in. Otherwise, they'll 
pay lip service to this issue, but they'll focus on the 
immediate issue--thing they're trying to do. When it comes to 
genetic engineering, we should prohibit any effort to increase 
the intelligence of any life form. I don't care if they create 
a fatter cow, or a leaner cow. I do not want to eat a smarter 
cow, let alone what can be done to create levels of 
intelligence either above that of a human being or just below.
    Finally, we had hearings in Foreign Affairs that I chaired 
last decade on using the Non-Proliferation Act as a plan to 
deal with this internationally, but I think that the U.S. has 
to develop its own standards before we'll be effective in 
dealing with the world. I chair the Asia Subcommittee now, and 
I talked facetiously with a Chinese Foreign Ministry official. 
I told him that the computers that displace humankind will be 
created in California, not Shanghai, therefore, America wins. 
No, I don't reach that conclusion. It was a facetious one. So I 
look forward to working on this Committee to make sure that, as 
we move forward with these two important areas of scientific 
development, artificial intelligence and genetic engineering, 
that we have the appropriate controls, and that we do not 
create a replacement species without even thinking about it. 
And I yield back.
    [The prepared statement of Mr. Sherman follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Johnson. Thank you very much. Mr. Upton? Tipton, 
I'm sorry.
    Mr. Tipton. That's OK, yes. I'm in politics. You can't 
believe what I get called.

                 STATEMENT OF HON. SCOTT TIPTON,

                  A REPRESENTATIVE IN CONGRESS

                   FROM THE STATE OF COLORADO

    Mr. Tipton. Thank you, Chairwoman Johnson, and Ranking 
Member Lucas. I appreciate you very much opening up the process 
for legislation of those that are not on the Committee to be 
able to address issues that will certainly impact all of us 
here at home.
    Since the 1960s the U.S. has dominated space exploration, 
and has excelled in aeronautical innovation. My State of 
Colorado has played a critical role in the success of this, 
serving as the home to one of the largest aerospace industries 
in the country. In my office we consistently meet with 
stakeholders who have engaged us in the newer issue of space 
resource utilization. In the past decade, there's been a lot of 
interest in in situ research utilization, known as ISRU, which 
is the practice of using materials found on the lunar surface, 
and on asteroids, to replace materials that have been brought 
from Earth to make space travel more affordable and flexible. 
Federal agencies, academia, and the private sector have agreed 
across the board that more space exploration will be supported 
by extraction of materials in space, which can decrease the 
cost of human space flight to the moon and to Mars.
    In 2019 alone, this Committee has held hearings on topics 
related to NASA's deep space exploration programs, America's 
role in space, and keeping our sights on a manned mission to 
Mars. All of this are reliant on ISRU, which has also been 
discussed in the Committee. Dr. Peggy Whitson, a former NASA 
astronaut, even testified during a Committee hearing about how 
the future of America's presence in space will in part be 
related to America's ability to be able to conduct ISRU on 
lunar surface for resources like water and minerals. American 
scientists and engineers have diligently worked to be able to 
advance research into the field, but there is no central hub to 
support such efforts. That is why I've come to testify here 
today, and advocate for consideration of legislation that I 
have introduced within the jurisdiction of this Committee 
related to this issue.
    This past February I introduced H.R. 1029, the Space 
Resources Institute Act. If signed into law, H.R. 1029 would 
direct the administrator of NASA to submit a report to Congress 
on the merits of, and options for, establishing an institute 
relating to space resources, and advance the objectives of NASA 
in maintaining U.S. pre-eminence in space. These objectives 
include identifying and distributing space resources through 
the encouragement of developing foundational science and 
technology, reducing the technological risks associated with 
identifying and distributing space resources, and developing 
options for using space resources to support current and future 
space programs, and enable ones that wouldn't otherwise be 
possible.
    I was proud to introduce this bill with my colleague from 
Colorado, Congressman Ed Perlmutter, and, since its 
introduction, it has gained additional bipartisan support. It's 
my goal that, with the passage of H.R. 1029, that we can build 
upon the accomplishments of the U.S. Commercial Space Launch 
Competitiveness Act, (CSLCA) which was introduced by Minority 
Leader Kevin McCarthy in 2015, and was signed into law by 
President Obama. The CSLCA made it legal to facilitate, and to 
participate, in commercial exploration, and recovery of, and 
for space resources. As academia, the private sector, and 
Federal agencies engage in ISRU research, all parties will 
benefit from a central institution where research can be 
shared, expanded upon, and put into action.
    Given the support on both sides of the aisle for future 
manned missions to the moon and Mars, I'm hopeful and confident 
that H.R. 1029 will advance U.S. interests in space. At a time 
when Russia, China, and other foreign actors are attempting to 
grow and invest in their space programs to surpass us, we must 
act swiftly to maintain our position in the global space arena. 
America has always excelled in space, and we must continue to 
do so through legislative measures like H.R. 1029. I'd 
respectfully request that H.R. 1029 be considered in a Full 
Committee hearing and markup as soon as possible, and I thank 
you again for the opportunity to be able to address you here 
today, and for the openness of this process through your 
Committee.
    [The prepared statement of Mr. Tipton follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Johnson. Thank you very much. We will now begin 
our question section, and we will start again at the beginning, 
so, Mr. Norman, you will be open for questions, and anyone can 
ask them, and we'll move down the line.
    The question I'd like to ask you is, in your bill H.R. 617, 
is it only limited to the areas, the medical conditions, which 
you identified?
    Mr. Norman. Yes, ma'am. It's based on the medical 
information that the veterans have donated that the DOE can use 
to further the treatment, try to predict who's going to get 
what. But, yes, it's the medical data that the veterans have 
given to the DOE.
    Chairwoman Johnson. The reason I'm asking that is because 
trying to get the records organized and compatible between the 
time the veteran leaves military service to the VA has been 
very difficult, and mental health is one of the critical areas 
that is not being addressed right now with the VA, and timely. 
And that's why I asked you that question. I think the bill has 
merit. Are these areas in which the Department of Energy has 
great information now, which they just want to share 
compatibility?
    Mr. Norman. Yes, and I consider the mental illness PTSD 
(post-traumatic stress disorder) is a part of that, and I know 
we visited Dorn, which is a hospital in my area, to pay the 
veterans who are coming back from the Vietnam War or Iraq, 
that's a medical condition. So whatever they can get the data 
on, that would be included.
    Chairwoman Johnson. OK. I have the second largest VA 
hospital in the Nation in my district, and we see the problems 
on a day-to-day basis. That's my largest district office case 
workload, is complaints.
    Mr. Norman. Mine too, Chairman Johnson. I tell you, the 
suicide rate is a direct result of just what you're talking 
about----
    Chairwoman Johnson. Um-hum.
    Mr. Norman [continuing]. And that's why it's so important. 
If you don't have the backup data, how do you--and if you can't 
find it, like you say, then how do you act on it? And I know in 
my district, one of the big things is the suicide rate, which 
stems from medical illness, and mental illness is triggered by 
the PTSD that a lot of them suffer.
    Chairwoman Johnson. Yes, that's very true. Our community 
has seen it very clearly. We had four policemen killed a little 
over a year ago, 2 years ago now, that was a mentally ill 
veteran that had not been able to get seen for a year at the 
VA. And so this continues. It has had really no improvement, 
taking 6 and 8 months for patients to get a psychiatric 
appointment. And then all of those external services, like home 
health care, are going out of business because they can't get 
paid from the VA. And so I just thought, if we're going to link 
with another agency, if we could have information that would 
help to close some of these gaps because of the rapidity of 
which they could be addressed with that computer service.
    Mr. Norman. I agree, and in my office this week, National 
Police Week, we had six police officers, three of them had 
gotten shot, and guess who did the shooting? A veteran from the 
Vietnam War who was on the SWAT team. 65 years old. And one of 
the issues we face is a lot of them are quiet. You know, mental 
illness is something, how do you address it? And it's a two-
edged sword. That's why the value of this, if we can have data, 
however small, it will pay dividends on down the road. Maybe 
this veteran could've gotten help to stop him from opening fire 
on the officers, killing one, and wounding the other. So it's 
something that's well overdue, and I think will save lives in 
the long run.
    Chairwoman Johnson. Thank you. Any other questions? Yes, 
Mr. Baird.
    Mr. Baird. Thank you, Madam Chair, and Congressman Norman, 
I would make one comment. I can't resist making a comment about 
the Vietnam veterans and the PTSD. I think you have to 
recognize also that, when we came home from that war, we did 
not receive the welcoming that they had for prior wars and so 
on, and I think that had an impact on those veterans. But in 
any case, I really appreciate you making this effort with this 
bill to help veterans. I do think information of this kind can 
be useful, particularly in helping them identify what 
appointments, where to go, and keeping track, doing the follow 
up on that. Because, as the Chairlady mentioned, it gets a 
little frustrating for veterans in order to try to make 
appointments, get appointments canceled, even getting through 
to the VA system. And so I think having this kind of data, as 
long as we can protect the individual privacy, I think having 
the data to make quicker decisions, and more relevant 
decisions, would be good, so I commend you for that.
    I guess I'm supposed to ask a question, aren't I?
    Chairwoman Johnson. You've got 5 minutes to do whatever you 
want to do.
    Mr. Baird. OK. Thank you. I guess my question is, can this 
program with the DOE, because they have such capable computers, 
also help making appointments, and enhancing the computer 
system that the VA operates with today? Do you think that's----
    Mr. Norman. Thank you, Congressman Baird. The answer is, 
you know, the answer's yes, short answer, but to explain it 
further, you know, you've got to have measurables to go by. 
What greater service can we provide than people such as 
yourself, when you call in with a particular illness, be able 
to say, we've included your data, along with others, here is 
what some treatment can be based on the information. If you 
don't have the information, it's like flying with a blindfold 
on. You don't know where you're going, or driving with a 
blindfold on. So, yes, I think it'll help all the way around, 
and it'll help that hospital.
    When you have data that's pulled up, particularly if it's 
from that particular hospital, the supercomputer would be able 
to file individual cases with that particular illness, and 
you'll be able to address it directly, and ask that hospital, 
if a veteran has not gotten a timely response, this is the 
information we gave you, why haven't you responded? Because a 
lot of these veterans are, particularly on some of the 
surgeries they need, being put off time after time again. And 
we got involved with some cases where the veteran could not 
afford to drive to the hospital. So we said, we don't know, you 
need to tell us why this veteran can't get there. Just saying 
you can't do it--we need to look further, and say, well, we can 
provide either the means to get there, or have a family or 
friend to do that.
    So, yes, it's just being able to accumulate information, 
and use it. This isn't something that's going to be stored and 
left--and just not used. Thank you for the question.
    Mr. Baird. Thank you.
    Chairwoman Johnson. Thank you. Mr. Tonko?
    Mr. Tonko. Thank you, Madam Chair. Representative Norman, 
interested in the additional pilot program activity for DOE----
    Mr. Norman. Um-hum.
    Mr. Tonko [continuing]. To see and explore where there 
might be some other interagency interaction. Is there anything 
that you have in mind that you think they might connect with, 
in terms of an agency, and in a social or programmatic issue?
    Mr. Norman. Yes, sir, Congressman. I think one of the 
advantages, and why we put the pilot program in, is to give it 
time to see what works and what doesn't work. And we're going 
to put the burden on them to come up with whatever tools they 
can use from any other agency that could provide not only the 
information, but the backup information. So the pilot program 
is to give them time to do that.
    Second is, after 24 months, they'll present a written 
response to Secretary Perry, and anybody else, as to the 
effectiveness of it, what agencies have they reached out to, 
and what agencies have given them useful information. Because 
at the end of the day, it's to help that veteran. It's to help 
that family of the veteran. And they've got a list of agencies 
that they want to reach out to. Again, this was asked for by 
the VA and the DOE.
    Mr. Tonko. I appreciate that. You know, I think, Madam 
Chair, and Ranking Member, it seems as though there's so much 
data compilation in our given world, and the big challenge to 
all of us, as a society, is to make sense of all that data 
that's compiled, and to put it to good working use. So it seems 
like this is a good opportunity for us to move forward, and 
respond in the interim to the needs of the veterans. So I yield 
back.
    Mr. Norman. And, Congressman, I think, by having the 2-year 
window to evaluate it, we're going to encourage the patients, 
the veterans that are actually being served, to get involved. 
Were they answered in a timely manner? Were the symptoms and 
the issues that they were having medically, were they 
addressed? So this is the interaction between not just the two 
agencies, but the veteran, to get his opinion, the patient, and 
that's what's exciting about this.
    Chairwoman Johnson. Thank you very much. Any other 
questions on this issue? Guess not. Thank you very much for 
your presentation, and we look forward to working with your 
bill. Now we'll move to--any other Members at the dais here 
would like to comment or ask questions on this particular bill?
    Mr. Babin. Yes, ma'am. As a veteran myself, and with over 
50,000 veterans in my district, in the 36th District of Texas, 
from Houston over to Louisiana, this is very promising, because 
some of the biggest problems we have, you talk to law 
enforcement and the veterans groups, the mental health aspect 
falls through the cracks, and it sounds like this is a bill 
that--if I'm not already on it, please put me on it, OK?
    Mr. Norman. Thank you, Congressman Babin.
    Mr. Babin. Thank you. Just wanted to commend you.
    Mr. Norman. The thing I was asking, how'd they come up with 
the 24 to 26 million? How'd they pick that number out? And I 
was happy to see that they both got together and came up with a 
number that they thought was not too much, but could get the 
job done. That's why we sunsetted it, and had the 2-year pilot 
program, if you will. So, you know, we put the burden on them 
to: One, to have enough funding, and then to evaluate it. 
That's the beauty of this.
    Chairwoman Johnson. Thank you very much. Any other Member 
of the panel like to comment on that particular--thank you for 
presenting your bill, and I'm sure we'll have very favorable 
approaches to it.
    Now we'll go to Mr. Babin's bill, and see if there are any 
questions there. My question, is this the Space Force bill that 
you----
    Mr. Babin. No, ma'am. This is----
    Chairwoman Johnson. OK.
    Mr. Babin [continuing]. Not the Space Force bill. This is 
different. I'm not sure who's pushing that Space Force bill, 
but, you know, all I can say to that is I'm glad the 
Administration sees the need, you know, and the importance and 
significance of space in today's world, and the future. So I'm 
very glad to see that the proposal is coming forth. What it's 
going to look like when it gets, you know, when it's finalized, 
I don't know.
    Chairwoman Johnson. Well, I ask that question because I've 
had a number of questions asked me because there are two 
different approaches coming at the same time, as it relates to 
space. There's still some confusion as to whether this is one 
commercial project, or more than one, and whether or not the 
route to the moon, to Mars, has any relationship to the other 
one. I think I understand the difference, but I just wanted to 
be sure.
    Mr. Babin. OK. Maybe I misunderstood your first question, 
then. I thought you were talking about the proposed Space Force 
that the President proposed months ago. Is that what you're 
talking about, or are you talking about the----
    Chairwoman Johnson. I'm really asking for the delineation. 
There's some confusion as to whether or not the Space Force is 
going to be intertwined with the vision of going to the moon, 
to Mars. I think they're very different.
    Mr. Babin. Yes, I have not heard anything about that. I've 
actually got a couple of bills that I mentioned in my little 
opening there. The first one is the American Space Commerce 
Free Enterprise Act, which we passed out of Committee last 
year, and we never could get it through the Senate, 
unfortunately. But what that would do would be to streamline 
the bureaucracy. We don't want a regulatory bureaucracy that 
drives commercial space companies out of the United States, 
overseas. We want to make it as easy as possible for them to do 
business here, and have a one-stop shop so they don't have to 
go to various agencies for licensing, and what have you, that 
they would be able to go to the Department of Commerce, and 
that would facilitate a lot more ease for them to get their, 
you know, their projects done, and their launches, and 
licensing, et cetera.
    As far as your question about the Space Force, that's got a 
military aspect, and I'm sure that what we develop on the civil 
side certainly can enhance the war fighters, but that's not 
what my bill addresses.
    Chairwoman Johnson. OK. Thank you.
    Mr. Babin. Yes, ma'am.
    Chairwoman Johnson. Mr. Baird?
    Mr. Baird. Congressman Babin, I have just one question, I 
think, as it relates to your first concern there, about the way 
we regulate commercial flight. You mentioned something about 
not having so much regulation that we end up forcing it to 
other countries. I just thought I'd give you a chance to have a 
second thought on that, and make sure that I understand what 
you mean by that.
    Mr. Babin. Well, the way things are currently, it's 
surprising, but many of our commercial space companies, whether 
they be American or foreign, we need to facilitate them to 
want, and enable them to come to the United States to do 
business. It's a multibillion-dollar business that's going to 
do nothing but grow in the future. And you'd be surprised, but 
some companies go to Luxembourg, or other foreign nations, 
because they have a lot less red tape to go through. And so 
this is what our bill is all about. And we just want to make 
sure that we have a burgeoning, robust space program that is 
second to none in the world, and that people want to come to 
the United States to do business.
    Because, as you know, our Administration wants public-
private partnerships. We've seen amazing things develop out of 
our commercial space industry over the last years. Reusable 
rockets, you know, who would've thought, you know, 25 or 30 
years ago we'd have private companies that might be able to 
land men and women on the moon? We want to make sure that the 
United States is the center of that world.
    Mr. Baird. Thank you. I yield back.
    Mr. Babin. Yes, sir.
    Chairwoman Johnson. Thank you. Thank you very much. Now, 
for our last two Members, I don't particularly have any 
questions for either of you, but if you have further 
statements, or if you might have questions for either one of 
them, Mr. Tipton or Mr. Sherman.
    Mr. Tipton. I think I'm good.
    Chairwoman Johnson. OK.
    Mr. Sherman. I would just stress how important it is, as we 
deal with artificial intelligence, to not just focus on the 
immediate problem at hand, how to develop a computer that will 
give us better insight into weather, et cetera, or whatever 
else we're focusing on, but that we also focus on avoiding 
self-awareness and ambition. I yield back.
    Chairwoman Johnson. Thank you.
    Mr. Tipton. Again, thank you for the opportunity. A few of 
us, the other night, went to First Steps, a showing down at the 
Air and Space Museum, talking about when we sent man to the 
moon for the first time. And I think the great blessing, 
really, to this Committee is to be able to look out into what 
is possible, not what is, that what is possible can certainly 
impact what is to come. And I appreciate, really, the 
progressive nature, in terms of being able to let us reach to 
our highest and to our best levels, and, again, for the 
opportunity to be able to come in. And I would encourage your 
support for our legislation for the in situ mining.
    Chairwoman Johnson. Thank you very much, and I appreciate 
all of you coming, and I'm hoping that you will feel that your 
thoughts and legislation will be given fair and open 
opportunity to move forward.
    Now, before we bring this hearing to a close, I'd like to 
thank all of you, but also to say that our record will remain 
open for 2 weeks for any additional statements from Members or 
any additional information you'd like to submit for the record. 
Thank you again for coming, and we're adjourned.
    [Whereupon, at 10:21 a.m., the Committee was adjourned.]

                                 [all]
</pre></body></html>
